U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


  HEAD START PROGRAM GRANTS,
 DEPARTMENT OF HUMAN SERVICES,
GOVERNMENT OF THE VIRGIN ISLANDS

             REPORT NO.OO-I-499
                 JUNE2000
U.S. Department    of the Interior                            Office of Inspector   General


                             EXECUTIVE SUMMARY

                              Head Start Program Grants,
                             Department of Human Services,
                            Government of the Virgin Islands
                                   Report No. 00-I-499
                                        June 2000

BACKGROUND

The Head Start Program was established in 1964 to deliver comprehensive health,
educational, nutritional, social, and other services to economically disadvantaged children
and their families in order to help the children attain their full potential. In the Virgin
Islands, the Head Start Program is administered by the Department of Human Services. The
Program operates 35 centers serving approximately 1,200 children. The Program is funded
by a discretionary grant from the U.S. Department of Health and Human Services, which
requires a 20 percent local matching share. For fiscal year 1999, the Program received
$10.2 million, of which $8.2 million was awarded by the U.S. Department of Health and
Human Services and $2 million was the required local matching share.

OBJECTIVE

The objective of the audit was to determine whether (1) the Department of Human Services
complied with grant terms and applicable laws and regulations; (2) charges made against
grant funds were reasonable, allowable, and allocable pursuant to grant agreement
provisions; (3) funds received through electronic transfers were appropriately deposited to
and accounted for in the Government’s financial management system; and (4) drawdowns
were made in accordance with the Cash Management Improvement Act of 1990.

RESULTS     IN BRIEF

We found that the Department of Human Services administered the Head Start Program in
accordance with grant terms and applicable laws and regulations; charges made against the
grant funds generally were reasonable, allowable, and allocable pursuant to grant agreement
provisions; and drawdowns were made in accordance with the Cash Management
Improvement Act of 1990 and properly deposited. We could not determine whether funds
drawn down were accurately accounted for in the financial management system because the
information had not been recorded in the system at the time of our audit. In addition, Head
Start Centers were being renovated to supply sufficient classroom space for the Head Start
Program to meet its mandated enrollment level. However, the administration of the Head
Start Program could be further improved by ensuring that lease agreements for administrative
offices and Head Start Centers are negotiated through the Department of Property and
Procurement, as required by the Virgin Islands Code, to ensure that rental rates are not in
excess of recommended rates. For example the Program paid $14.84 per square foot for
classroom space of 4,276 square feet, while the standard maximum rate established by
Property and Procurement was $6.00. This occurred because Human Services officials and
potential landlords agreed on key lease terms that did not offer the most advantageous prices
to the Government and because Human Services officials did not contact Property and
Procurement for consideration and approval until after the lease terms had been agreed upon
with potential landlords. As a result, the Head Start Program incurred excess rental costs
ranging from $73,023 to $96,929 during fiscal year 1999.

RECOMMENDATIONS

We recommended that the Department of Human Services establish internal procedures to
ensure that future lease agreements were negotiated in accordance with Virgin Islands Code
requirements and provide the Federal grantor agency with documentation related to the
excess rental costs for determination as to allowability. We also recommended that the
Department of Property and Procurement formally establish maximum rental rates for
different classes of leased property, inform Governmental agencies of those maximum rates,
and establish procedures to document and provide feedback to agency heads on the status of
lease negotiations.

AUDITEE COMMENTS AND OIG EVALUATION

The response from the Governor of the Virgin Islands concurred with one recommendation
but did not concur with two recommendations.    The response, however, was not sufficient
for us to consider any of the recommendations resolved.




                                              2
                                                                        V-IN-VIS-008-99-M

             United States Department                      of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20240

                                                                       JuNl4m


                                 AUDIT REPORT

Honorable Charles W. Turnbull
Governor of the U.S. Virgin Islands
No. 2 1 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report on Head Start Program Grants, Department of Human Services,
         Government of the Virgin Islands (NO. oo-I-499)

Dear Governor Turnbull:

This report presents the results of our review of Head Start Program grants administered by
the Department of Human Services, Government of the Virgin Islands. The objective of the
audit was to determine whether (1) Human Services complied with grant terms and
applicable laws and regulations; (2) charges made against grant funds were reasonable,
allowable, and allocable pursuant to grant agreement provisions; (3) funds received through
electronic transfers were appropriately deposited to and accounted for in the Government’s
financial management system; and (4) drawdowns were made in accordance with the Cash
Management Improvement Act of 1990.

BACKGROUND

The Head Start Program, which was created by Title V of the Economic Opportunity Act of
1964 (42 U.S.C. 5 9801), was designed to deliver comprehensive health, educational,
nutritional, social, and other services to economically disadvantaged children and their
families in order to help the children attain their full potential. In the Virgin Islands, the
Head Start Program is administered by the Department of Human Services Office of
Preschool Services, Division of Children, Youth, and Families. The Program operates
35 centers (19 on St. Thomas/St. John and 16 on St. Croix), with a grant-mandated
enrollment of 1,430 children. During fiscal year 1999, actual enrollment was 1,197 children,
or 84 percent of the grant-mandated enrollment.

The Head Start Program is funded by a discretionary grant from the U.S. Department of
Health and Human Services, which requires that grantees contribute a 20 percent local
matching share. For fiscal year 1999, the Program received $10.2 million, of which
$8.2 million was awarded by the U.S. Department of Health and Human Services and
$2 million was the required local matching share. As of August 31, 1999, $7.9 million
($6.1 million in Federal funds and $1.8 million in local matching share funds) had been


                                              3
disbursed against the grant. An unaudited balance sheet for the Head Start Program grant as
of August 31, 1999 is in Appendix 2, and an unaudited statement of revenues and
expenditures for the Head Start Program giant for the year ended August 3 1, 1999 is in
Appendix 3.

SCOPE OF AUDIT

The scope of the audit initially was to review grant transactions that occurred during fiscal
years 1997 and 1998. However, at the entrance conference, Human Services officials told
us that financial and compliance audits of the Head Start Program had been conducted by a
private accounting firm in February 1999 for fiscal year 1997 and in May 1999 for fiscal year
1998. Accordingly, the scope of our audit was changed to review grant transactions that
occurred during fiscal year 1999 (September 1998 through August 1999 for grant purposes).
The audit was conducted from July through November 1999 at the Departments of Human
Services, Finance, and Property and Procurement and at Head Start Centers on St. Thomas.

Regarding fi_mdsreceived through electronic transfers, the scope of our audit was limited
because the Department of Finance had not prepared Statements of Remittance (the
documents used to record revenue information in the Government’s financial management
system) for fiscal year 1999 transactions. Accordingly, while fi.mds received through
electronic transfers were appropriately deposited into the Government’s bank account, these
funds were not accounted for as of November 30, 1999 in the Government’s financial
management system.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

Our audit included an evaluation of internal controls to the extent we considered necessary
to accomplish the audit objective. The internal control weaknesses identified related to the
procurement of leased space for administrative offices and Head Start Centers. The internal
control weaknesses are discussed in the Results of Audit section of this report. Our
recommendations, if implemented, should improve the internal controls in this area.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the General Accounting Office nor the Office of Inspector
General has issued any audit reports on the Head Start Program in the Virgin Islands.
However, related audit reports were issued as follows:

       - In May 1999, a private accounting firm issued the report “Financial and
Compliance Audit for the Year Ended August 3 1,1998, Head Start Program, Department of
Human Services, Government of the Virgin Islands.” The report stated that the financial
statements presented fairly, in all material respects, the financial position of the Head Start
Program as of August 3 1, 1998. However, the report noted that the Head Start Program was

                                              4
not in compliance with the mandated enrollment of 1,430 children and that accounts payable
totaling $576,195 for goods and services incurred by the Head Start Program as of
August 3 1,1998 had not been paid by the Department of Finance. The report did not identify
any material weaknesses for the 1998 grant period.

        - In February 1999, a private accounting firm issued the report “Financial and
Compliance Audit for the Year Ended August 3 1,1997, Head Start Program, Department of
Human Services, Government of the Virgin Islands.” The report stated that the financial
statements presented fairly, in all material respects, the financial position of the Head Start
Program as of August 3 1, 1997. However, the report classified as material weaknesses the
lack of supporting documentation for fixed assets, the inaccurate preparation of financial
status reports, and the lack of compliance with the mandated enrollment. In addition, the
report stated that accounts payable totaling $13 1,4 12 for goods and services incurred by the
Head Start Program as of August 3 1,1997 had not been paid by the Department of Finance.
Accounts payable to vendors had increased to $817,228 as of August 3 1,1999.

         - In May 1998, the Administration for Children and Families, U.S. Department of
Health and Human Services, issued the report “Head Start On-Site Monitoring Review
Report, Department of Human Services, Government of the Virgin Islands.” The report
stated that the Head Start Program’s strengths and exemplary practices included a “well-
written and comprehensive” Administrative Procedures Manual, a recruitment system which
ensured that “families with the greatest need were selected for enrollment,” and a nutrition
program that presented “a diversity of foods” to the children. However, the report noted the
following areas of concern: (1) the enrollment level was not at the maximum capacity, (2)
all facilities were not accessible to children with disabilities, (3) copies of current lease
agreements for all rental facilities were not available, (4) encumbered funds were not posted
onto the accounting records but were included as obligations on the second semiannual
Financial Status Report (Form SF-269), (5) th e in-kind services (non-Federal cash outlays)
were maintained separately from the accounting records, (6) reconciliations were not
conducted with Department of Finance records on a regular basis, and (7) U.S. Department
of Agriculture reimbursements were not posted as revenue in the accounting records on a
timely basis. Our current review showed that Department of Human Services officials either
had implemented or were in-the process of implementing corrective actions to address these
areas of concern.

                              RESULTS OF AUDIT
The Department of Human Services administered the Head Start Program in accordance with
grant terms and applicable laws and regulations. Specifically, charges made against the grant
funds generally were reasonable, allowable, and allocable pursuant to grant agreement
provisions, and drawdowns were made in accordance with the Cash Management
Improvement Act of 1990. In addition, Head Start Centers were being renovated to supply
sufficient classroom space for the Head Start Program to meet its mandated enrollment level.
However, we found that the administration of the Head Start Program could be further
improved by ensuring that lease agreements for administrative offices and Head Start Centers
are negotiated through the Virgin Islands Department of Property and Procurement to ensure

                                               5
that rental rates do not exceed the maximum rates established by Property and Procurement.
U.S. Office of Management and Budget Circular A-87, “Cost Principles for State, Local, and
Indian Tribal Governments,” establishes the principles for determining the allowability of
costs incurred under Federal grants, and the Virgin Islands Code contains detailed
requirements to ensure that procurement actions are made on the basis of full competition
and with the objective of providing the best possible contract prices, terms, and conditions
for the Government. Leases were not negotiated in accordance with requirements because
Human Services officials and potential landlords agreed on lease terms that did not offer the
most advantageous prices to the Government and because Human Services officials did not
involve Property and Procurement or the Office of the Governor in the negotiation process
until after the lease terms were negotiated. As a result, the Head Start Program incurred
excess rental costs ranging from $73,023 to $96,929 during fiscal year 1999 (see
Appendix 1).

Leasing Practices

The Virgin Islands Code (3 1 V.I.C. 6 232(3)) states that the Commissioner of Property and
Procurement is responsible for leasing “all grounds, buildings, offices, or other space that
may be required by government departments and agencies.” Additionally, Attachment B,
Section 38, of U.S. Office of Management and Budget Circular A-87 states that “rental costs
are allowable [for grant purposes] to the extent that the rates are reasonable in light of such
factors as: rental costs of comparable property, if any; market conditions in the area;
alternatives available; and, the type, life expectancy, condition, and value of the property
leased.” In that regard, Property and Procurement, prior to commencing lease negotiations,
conducts surveys of comparable properties and establishes applicable rental rates based on
market conditions. Property and Procurement officials told us that during fiscal year 1999,
the standard maximum rental rates they used when negotiating leases were $12 to $15 per
square foot for office space and $5.50 to $6 per square foot for storage and other residential
space (including day care centers).

Despite these requirements, Human Services negotiated its own lease agreements for
administrative office space and Head Start Centers. Of the seven leases that we selected for
review, we found four instances, initially totaling $215,163, in which the leases were
awarded noncompetitively and without the initial involvement of Property and Procurement
in the negotiation process. Specifically, we found the following:

         - In December 1995, the Commissioner of Human Services wrote to the
Commissioner of Property and Procurement requesting assistance in negotiating the price of
a lease to operate four Head Start classrooms at a local religious facility. However, the letter
stated that throughout the prior 3 weeks, Human Services Deputy Commissioner of Planning
and Evaluation and its Acting Pre-School Coordinator had been in contact with officials of
the religious facility and had been negotiating certain items pertinent to the proposed lease,
such as the location of the proposed site, a contact person at the site, the square footage of
the site, and the proposed monthly rental charge. In fiscal year 1999, the Head Start Program
paid about $14.84 per square foot for 4,276 square feet of space to operate the four Head
Start classrooms, for a total annual rental cost of $63,450. If the standard maximum

                                               6
allowable rates of $5.50 to $6 per square foot, as determined by Property and Procurement,
had been used, the annual rental cost would have totaled from $23,518 to $25,656, or
$37,794 to $39,932 less than the amount negotiated by Human Services. Accordingly, we
took exception to the differences in costs of $37,794 to $39,932.

At the January 27, 2000 exit conference on the preliminary draft of this report, Human
Services officials stated that Property and Procurement officials had been involved in the
early phase of rental negotiations with the religious organization and that the Property and
Procurement officials authorized them to finalize lease terms and conditions. However, as
of February 1,2000, the Human Services officials were unable to provide documentation to
support these statements, and the Property and Procurement officials who had authorized the
lease had retired.

        - InNovember 1994, the Commissioner of Human Services wrote to the Governor,
through the Commissioner of Property and Procurement, requesting the Governor’s approval
for the lease of 13,329 square feet of additional office space in a building that, at the time,
was partially occupied by Human Services. The letter referred to an enclosed lease and asked
for the Governor’s “consideration and approval” of the lease. In addition, the letter outlined
the major terms of the lease agreement and the applicable renewal options. The renewal
options included a 5 percent increase for each annual renewal. In fiscal year 1999, Human
Services paid $20 per square foot for the office space, for a total annual rental cost of
$266,580. The Head Start Program was responsible for paying one-half of this amount, or
$133,290, and the Food Stamp Program paid the remaining $133,290. If the standard
maximum allowable rates of $12 to $15 per square foot, as determined by Property and
Procurement, had been applied, the annual rental cost would have totaled from $159,948 to
$199,935, or $26,658 to $66,645 less than the amount negotiated by Human Services.
Because the office space was shared equally by the Head Start and the Food Stamp Programs,
we took exception to costs of $13,329 (one-half of $26,658) to $33,322 (one-half of
$66,645).

        - In September 1991, the Commissioner of Human Services wrote to the
Commissioner of Property and Procurement “requesting that the Government immediately
enter into a lease for the rental of real property” on St. John for use as a Head Start Center.
The correspondence contained the lessor’s name, the physical property address, and the
agreed-upon monthly rental rate. In fiscal year 1999, the Head Start Program paid about
$11.02 per square foot for 1,960 square feet of space, for a total annual rental cost of
$21,600. If the standard maximum allowable rates of $5.50 to $6, as determined by Property
and Procurement, had been applied, the annual rental cost would have totaled horn $10,780
to $11,760, or $9,840 to $10,820 less than the amount negotiated by Human Services.
Accordingly, we took exception to the differences in costs of $9,840 to $10,820.

At the January 27, 2000 exit conference on the preliminary draft of this report, Human
Services officials stated that this Head Start Center was closed in August 1999, when a
Government-owned facility became available.




                                               7
         - In July 199 1, the Commissioner of Human Services wrote to the Commissioner
of Property and Procurement “requesting the immediate issuance of two leases” for Head
Start Centers. The correspondence included the lessors’ names, property addresses, and
monthly rental rates. With regard to the first le.&e, the Head Start Program, in fiscal year
1999, paid about $13 58 per square foot to operate a 1,590~square-foot private residence as
a Head Start Center, for a total annual rental cost of $2 1,600. If the standard maximum
allowable rates of $5.50 to $6 per square foot, as determined by Property and Procurement,
had been applied, the annual rental cost would have totaled from $8,745 to $9,540, or
$12,060 to $12,855 less than the amount negotiated by Human Services. Accordingly, we
took exception to the differences in costs of $12,060 to $12,855. The second lease referred
to in the Commissioner’s letter was not included in our sample.

These four leases have been renewed annually since they were first executed, and they were
in effect during fiscal year 1999. For these leases, we did not find any correspondence in the
files at either Property and Procurement or Human Services to indicate that Property and
Procurement was contacted early enough in the process to assume its legally mandated role
of initiating and negotiating the leases. Accordingly, we concluded that because the lease
agreements were negotiated directly by Human Services and without the benefit of Property
and Procurement’s involvement, there was little assurance that the Government received the
most favorable prices, terms, and conditions for these lease agreements. By applying the
standard maximum rental rates used by Property and Procurement, we estimated, for the four
leases, that the Head Start Program could have saved a total of from $73,023 to $96,929 (see
Appendix 1) in rental costs during fiscal year 1999. The total savings over the life of the
leases would have been considerably greater.

At the January 27, 2000 exit conference on the preliminary draft of this report, Human
Services officials stated that, with regard to the four leases discussed in this finding, Property
and Procurement had not informed them of the standard maximum allowable rental rates or
otherwise questioned the proposed rental rates for the leased Head Start classrooms and
office space. They further stated that they therefore were not aware that the actual rental
rates were in excess of Property and Procurement’s standard rates.

Enrollment      Level

According to 45 CFR Q1305.7(b), a Head Start grantee “must maintain its funded enrollment
level,” which in the Virgin Islands was 1,430 children. However, the actual enrollment was
1,246 children during fiscal year 1997, 1,226 children during fiscal year 1998 and
1,197 children during fiscal year 1999. The underenrollments occurred primarily because
Head Start Centers were damaged by Hurricane Marilyn in September 1995. Without
adequate facilities, the Head Start Program did not have sufficient classroom space for
children to be enrolled at the mandated level. For the 1999-2000 school year, the Head Start
Program entered into Interim Partnership Agreements with private day care providers and
Department of Human Services day care centers. Per these agreements, 40 children who
would have been enrolled in the Head Start Program were instead enrolled in day care
programs. In the case of the private day care centers, the fees were paid by Human Services.


                                                8
In July 1998, Human Services contracted with two architectural/engineering firms to prepare
plans for the renovation and repair of existing Head Start Centers and office buildings on
St. Thomas, St. John, and St. Croix that were damaged during Hurricane Marilyn in
September 1995. We believe that once these projects are completed, the Head Start Program
will have sufficient classroom space to accommodate an adequate number of children to meet
the mandated enrollment level.

Recommendations

We recommend that the Governor of the Virgin Islands:

         1. Direct the Commissioner of Human Services to establish internal procedures to
ensure that the Head Start Program is in compliance with the requirements contained in the
Virgin Islands Code (3 1 V.I.C. $232) when entering into lease agreements for administrative
office space and Head Start Centers. Specifically, the Division of Planning and Evaluation
of the Department of Human Services should prepare specifications for space requirements,
including proposed locations; forward the requests to the Department of Property and
Procurement for that agency to negotiate equitable rental costs and other lease terms and
conditions; and fully document the lease process, including maintaining records of lease
negotiation meetings held.

       2. Direct the Commissioner of Human Services to provide the U.S. Department of
Health and Human Services with supporting documentation for the cost exceptions ranging
from $73,023 to $96,929 so that the grantor agency can make a final determination as to the
allowability of those costs.

         3. Direct the Commissioner of Property and Procurement to formally establish
standard maximum rental rates for different classes of leased property, inform all
Governmental agency heads of the rates and any revisions to the rates, and establish
procedures to document and provide feedback to agency heads on the status of lease
negotiations.

Governor of the Virgin Islands Response and Office of Inspector General
Reply

The May 9, 2000 response (Appendix 4) to the draft report from the Governor expressed
nonconcurrence with Recommendations 1 and 2 and concurred with Recommendation 3.
Based on the response, we consider the three recommendations unresolved (see Appendix 5).

        Recommendation 1. The response expressed nonconcurrence, stating that the
Department of Human Services “has in place procedures to ensure compliance with the
requirements for entering into lease agreements for all types of rental spaces.” Although the
response indicated that procedures for entering into lease agreements exist, such procedures
did not exist at the time of the audit and current procedures were not provided as part of the



                                              9
response to the draft report. Accordingly, we request that information be provided on the
procedures established by the Department for the leasing of office and other space.

         Recommendation 2. The response expressed nonconcurrence, stating that “the lease
agreement identified in the Draft Audit Report was performed in conformity with the
procurement provisions of the Virgin Islands Code, and under the guidance, direction and
approval of the Department of Property and Procurement.” As stated in the audit report, we
found that existing guidelines on maximum rental rates had not been followed by the
Department of Human Services, resulting in potential excess rental costs of $73,023 to
$96,929. Therefore, we believe that the supporting documentation for the leases should be
provided to the Federal grantor agency, the U.S. Department of Health and Human Services,
so that the grantor agency can make the final determination as to whether the excess rental
costs are allowable as charges against the Head Start Program grants.

        Recommendation 3. The response stated, “The Department of Human Services
concurs with recommendation number three . . . .” However, the response did not provide
any information on corrective actions that had been or would be taken to establish standard
maximum rental rates and to establish procedures to document and provide information to
agency heads on the rates and status oflease negotiations. Additionally, the recommendation
pertained to the Department of Property and Procurement, not the Department of Human
Services, and we did not receive any comments from Property and Procurement.

Please provide a response to this report by July 14,200O. The response should be addressed
to our Caribbean Regional Office, Federal Building - Room 207, Charlotte Amalie, Virgin
Islands 00802. The response should provide the information requested in Appendix 5.

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiarmual report to the U.S. Congress. In addition, the
Office of Inspector General provides audit reports to the Congress.

                                     Es;\+




                                              Earl E. Devaney
                                              Inspector General               v




                                             10
                                                      APPENDIX 1


              CLASSIFICATION OF MONETARY AMOUNTS


                                           Questioned Costs
              Finding Area                (Cost Exceutions)

        Leasing practices                $73,023 to $96,929*




*Amounts represent Federal funds.




                                    11
                                                                                                        APPENDIX 2

                           UNAUDITED BALANCE SHEET
                              AS OF AUGUST 31,1999
                       FOR HEAD START PROGRAM GRANTS,
                        DEPARTMENT OF HUMAN SERVICES,
                      GOVERNMENT OF THE VIRGIN ISLANDS

Assets.
A

     Revenues Receivable (Note 1)                                          $2.453.700

           Total Assets                                                                                   $2.453.700

Liabilities:

     Bank Overdraft (Note 2)                                                 $409,844
     Vouchers Payable (Note 3)                                                 817,228
     Outstanding Encumbrances (Note 4)                                       1,129,483
     Due to Administration for Children and Families
      Regional Office (Note 5)                                                  97,145

Total Liabilities                                                                                         $2.453.700

Notes to Balance Sheet:

1. Revenues Receivable
This amount represents monies that had not been drawn down from grant proceeds.

2. Bank Overdraft
This amount represents vouchers paid by the Department of Finance for expenditures incurred by the Head Start Program
during fiscal year 1999 but for which funds had not been drawn down by the Department of Human Services.

3. Vouchers Payable
This amount represents vouchers or accounts payable for goods and services obtained by the Head Start Program during
fiscal year 1999 that had not been paid by the Department of Finance.

4. Outstanding Encumbrances
This amount represents funds that were obligated but not expended during fiscal year 1999 for specific construction projects
and for the purchase of buses.

5. Due to Administration for Children and Families Regional Offlice
This amount represents the funds remaining at the end of the Head Start Program year after all of the obligations of the
Program had been met, At the end of each Program year, any excess funds are required to be returned to the grantor
agency. However, the Department of Human Services may request that the funds be reprogrammed for a specific purpose
of the Head Start Program. The reprogrammed funds, once approved, may be used only for the specifically approved
purpose.


                UNAUDITED - FOR INFORMATIONAL PURPOSES ONLY




                                                             12
                                                                                                        APPENDIX 3

     UNAUDITED STATEMENT OF REVENUE AND EXPENDITURES
          FOR THE FISCAL YEAR ENDED AUGUST 31,1999
              FOR HEAD START PROGRAM GRANTS,
               DEPARTMENT OF HUMAN SERVICES,
             GOVERNMENT OF THE VIRGIN ISLANDS

                                                                                                             Actual Under
                                                                Budget                   Actual             /Over) Budget

    Revenues: (Note 1)                                       $8.175.167               $8.175,167               0

    Expenditures and Obliaations:

        Personnel                                            $4,100,088               %4,112,157                ($12,069)
        Fringe Benefits                                       1,745,478                1,331,138                 4 14,340
        Equipment                                                180,889                 188,774                   (7,885)
        Supplies and Materials                                  243,466                  564,542                (32 1,076)
        Contract & Professional Services                               0                 995,414                (995,414)
        Renovations                                           1,110,350                1,126,251                 (15,901)
        Other                                                   794.896                  134.746                 660,150

        Total Expenditures and Obligations                   $8,175,167               $8,453;022              ($277,855)
        Less: U.S. Department of Agriculture
                Reimbursement (Note 2)                                   0              (375.000)                  375.000

        Net Expenditures and Obligations                     $8.175.167               $8.078.022                   $97,145

.   Excess of Revenues Over Disbursements                      0                          $97,145               ($97.145)

    Net Expenditures and Obligations                          $8,175,167               $8,078,022                  $97,145
        Less: Obligations (Note 3)                           (1.946.711)              (1.946.711)              0

        Cash Disbursements                                   w28.456                  $6.131,311                   $97,145

    Notes to Statement of Revenues and Expenditures:

    1. Revenues
    For reporting purposes, revenues include the total Federal grant award amount. However, as shown in Appendix 2 of this
    audit report, $2,453,700 of the grant amount had not been drawn down as of August 3 1. 1999.

    2. U.S. Department of Agriculture Reimbursement
    The U.S. Department of Agriculture reimbursed the Head Start Program for the cost of meals provided to Program
    participants. Therefore, for reporting purposes, we deducted the amount reimbursed to show the net amount ofexpenditures
    and obligations.

    3. Obligations
    The Department of Human Services prepared its financial status reports on the cash basis of accounting. Therefore, for
    reporting purposes, we deducted vouchers payable of $817,228 and outstanding encumbrances of $1,129,483, as shown
    in Appendix 2, from the total expenditures and obligations to show the actual cash disbursements.


                   UNAUDITED - FOR INFORMATIONAL PURPOSES ONLY

                                                               13
                                                                            APPENDIX 4
                                                                            Page 1 of 2




                           THE UNITED   STATESVIRGIN ISLANDS
                                   OFFICE OF THE GOUERNOR
                                     GOVERNMENT HOUSE

                                 CharlotteAmalie.V.1.
                                                   00802
                                        340-774-0001




                                              May 9,200O


Mr. Arnold E. van Beverhoudt, Jr.
Ofice of the Inspector General
Caribbean Office/Federal Building - Room 207
St. Thomas, Virgin Islands 00802

Dear Mr. van Beverhoudt:

        The attached information is the Department of Human Setvices’ response to the
draft Audit Report number N-IN-VIS-008-99-M on the Head Start Program Grants. I am
aware that this response was due by May 5, 2000. However, because of the shortened
work week there was a delay in getting the Department’s response to my office.
Realizing that the response will be late, Mr. Simmonds from my office spoke to Ms.
Stacy Chados, Senior Auditor, and requested an extension of the deadline to May 10,
2000.

        The draft audit report made three (3) recommendations for corrective action. The
Department of Human Services concurs with recommendation number three (3) but does
not concur with recommendations one (1) and two (2). The Department of Human
Services dnes not concur with recommendation number one (1) because the Department
currently has in place prdcedures to ensure compliance with the requirements for entering
into lease agreements for all types of rental spaces.

       The Department does not concur with recommendation number two (2). The
Department has expressed that the lease agreement identified in the Draft Audit Report
was performed in conformity with the procurement provisions of the Virgin Islands
Code, and under the guidance, direction and approval of the Department of Property and
Procurement.




                                         14
                                                                           APPENDIX 4
                                                                           Page 2 of 2




h4r. Arnold E. van Beverhoudt, Jr.
May 9.2000
Page 1




         I am grateful for the assistance your offke provides the Government through the
audit findings. I hope that the attached responses are acceptable.

                                            Sincerely,



                                            Charles W. Turnbull
                                            Governor




                                          15
                                                                          APPENDIX 5


      STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
        Reference           status                      Action Required

           1             Unresolved.        Provide a copy of procedures established
                                            by the Department of Human Services
                                            regarding the leasing of office and other
                                            space. A target date and title of the
                                            official responsible for implementation
                                            should also be provided.

                         Unresolved.        Provide documentation supporting that
                                            the leases and questioned costs have
                                            been referred to the grantor agency for
                                            final determination as to the allowability
                                            of excess rental costs. A target date and
                                            title of the offkial responsible for
                                            implementation should also be provided.

                         Unresolved.        Provide a plan indicating the actions the
                                            Department of Property and Procurement
                                            will take to establish standard maximum
                                            rental rates and to establish procedures to
                                            document and provide information to
                                            agency heads on the rates and status of
                                            lease negotiations. A target date and title
                                            of the official responsible for
                                            implementation should also be provided.




                                       16
                  ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                     Internet Complaint        Form Address


                   http://www.oig.doi.gov/hotline_form.html



                   Within the Continental         United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental         United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 23 5-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, DC. 20240-000 1

Toll Free Number
      l-800-424-5081

FTS/Commercial Numbers
     (202) 208-5300
     TDD (202) 208-2420
